No. 20-569
Iu the Supreme Count of the United States

ELIM ROMANIAN PENTECOSTAL CHURCH and
LOGOS BaPTIST MINISTRIES, Petitioners,

v.

JAY ROBERT PRITZKER,
in his official capacity as Governor of the State of Illinois, Respondent.

On Petition for Writ of Certiorari
to the United States Court of Appeals for the Seventh Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief in Opposition for
Respondent contains 5,714 words, excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on February 16, 2021.

    

10 West Randolph Street
Chicago, Illinois 60601
(812) 814-5376
jnotz@atg.state.il.us
Counsel for Respondent
